TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Improvements Have Been Made
                         to Address Human Capital Issues,
                          but Continued Focus Is Needed



                                        January 11, 2013

                              Reference Number: 2013-10-017




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


IMPROVEMENTS HAVE BEEN MADE                          One example of actions related to TIGTA
TO ADDRESS HUMAN CAPITAL ISSUES,                     recommendations includes the IRS’s
BUT CONTINUED FOCUS IS NEEDED                        development of an agency-wide recruitment
                                                     strategy that should place the IRS in a better
                                                     position to identify and attract qualified
Highlights                                           candidates. In the current budget environment,
                                                     a strategic and efficient approach to recruiting is
Final Report issued on January 11, 2013              necessary to hire highly qualified applicants to
                                                     provide America’s taxpayers with top-quality
                                                     service.
Highlights of Reference Number: 2013-10-017
to the Internal Revenue Service Deputy               Despite progress, continued focus by IRS
Commissioner for Operations Support and              executive management on human capital is
Deputy Commissioner for Services and                 important because the IRS is facing several key
Enforcement.                                         internal and external factors. For example, in
                                                     the last two fiscal years, the IRS workforce has
IMPACT ON TAXPAYERS                                  decreased by about 10,000 full-time equivalents,
The recruitment and retention of skilled             and many of its most experienced leaders and
employees is critical to the maintenance of a        employees will be eligible to retire in the next
high-quality workforce capable of meeting the        five years. At the same time, significant tax
needs of the American public. The IRS has            code changes are on the horizon, and the IRS
made progress in the management of its people        needs to make improvements to stop billions of
(human capital); however, continued focus is         dollars in fraudulent or improper tax refunds
needed to provide reasonable assurance that          resulting from identity theft and erroneous claims
the IRS has the right people in the right place at   for tax credits. The IRS is also undergoing a
the right time to provide taxpayers with             change in leadership, as its Commissioner (a
top-quality service and to enforce the law with      proponent of improving the IRS’s management
integrity and fairness to all.                       of its workforce) has completed his term.

WHY TIGTA DID THE AUDIT                              In addition, the IRS has outstanding corrective
                                                     actions in response to TIGTA human capital
Since Fiscal Year 2002, TIGTA has designated         reports that require a continued focus by IRS
human capital as one of the top 10 major             executive management. For example, TIGTA
management challenges facing the IRS. The            has reported that the IRS needs to develop an
overall objective of this audit was to provide the   agency-wide strategy for integrating new
status of actions taken in response to TIGTA         employees into the workforce because some
recommendations related to human capital that        best practices that would help new employees
were made in audit reports issued since Fiscal       become more productive were not fully
Year 2009, the status of the IRS’s                   implemented. For instance, contrary to IRS
implementation of the recommendations of an          policy, one-quarter of the new employees TIGTA
IRS task force, and TIGTA’s observations on the      contacted were not assigned a coach or mentor
IRS’s current human capital challenges.              when they arrived. While difficult, successfully
                                                     addressing human capital challenges will help
WHAT TIGTA FOUND                                     the IRS to do more with less and effectively
Since Fiscal Year 2009, the IRS reports              meet its tax administration responsibilities.
that it has completed corrective actions for
                                                     WHAT TIGTA RECOMMENDED
36 (78 percent) of 46 TIGTA recommendations
related to human capital and 53 (91 percent) of      TIGTA made no recommendations in this report;
58 recommendations made by an IRS-led task           however, key IRS management officials
force formed to address serious workforce            reviewed it prior to issuance.
issues. In addition to implementing TIGTA and
task force recommendations, the IRS has made
progress in addressing human capital issues.
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 January 11, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                         Michael E. McKenney
                               Acting Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Improvements Have Been Made to Address
                               Human Capital Issues, but Continued Focus Is Needed
                               (Audit # 201210002)

 This report presents the results of our review to provide the status of actions taken in response to
 Treasury Inspector General for Tax Administration (TIGTA) recommendations related to human
 capital made in audit reports issued1 since Fiscal Year2 2009, the status of the Internal Revenue
 Service’s (IRS) implementation of the recommendations of an IRS task force, and TIGTA’s
 observations on the IRS’s current human capital3 challenges. This review was conducted as part
 of the TIGTA’s Fiscal Year 2013 Annual Audit Plan and addresses the major management
 challenge of Human Capital.
 We made no recommendations in this report; however, key IRS management officials reviewed
 it prior to issuance.
 If you have any questions, please contact me or Gregory D. Kutz, Assistant Inspector General for
 Audit (Management Services and Exempt Organizations).




 1
   See Appendix IV for a list of TIGTA human capital–related audit reports considered as part of this review.
 2
   A 12-consecutive-month period ending on the last day of any month, except December. The Federal
 Government’s fiscal year begins on October 1 and ends on September 30.
 3
   Since Fiscal Year 2002, the TIGTA has identified human capital as one of the top 10 management and
 performance challenges for the IRS.
                                  Improvements Have Been Made to Address
                              Human Capital Issues, but Continued Focus Is Needed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Progress Has Been Made in Addressing Human Capital Issues ................... Page 3
          Continued Focus Is Needed to Address Human Capital Issues .................... Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Treasury Inspector General for Tax Administration
          Human Capital Reports Considered As Part of This Review ....................... Page 16
          Appendix V – Status of Corrective Actions to Treasury Inspector
          General for Tax Administration Human Capital Recommendations
          Made Since Fiscal Year 2009 ....................................................................... Page 18
          Appendix VI – Internal Revenue Service Workforce Trends ....................... Page 28
            Improvements Have Been Made to Address
        Human Capital Issues, but Continued Focus Is Needed




                   Abbreviations

FY           Fiscal Year
IRS          Internal Revenue Service
TIGTA        Treasury Inspector General for Tax Administration
                            Improvements Have Been Made to Address
                        Human Capital Issues, but Continued Focus Is Needed




                                          Background

Human capital1 is the Federal Government’s most
                                                                      Without a dedicated, highly
critical asset, making strategic management of human                skilled workforce, the IRS will be
capital a top priority for the Internal Revenue Service                   unable to successfully
(IRS). The recruitment of new employees and retention                     achieve its mission of
of existing employees is critical to ensuring the                    providing America’s taxpayers
                                                                       with top-quality service by
maintenance of a high-quality workforce capable of
                                                                     helping them understand and
meeting the needs of the American public. Without a                  meet their tax responsibilities
dedicated, highly skilled workforce, the IRS will be                   and enforcing the law with
unable to successfully achieve its mission of providing               integrity and fairness to all.
America’s taxpayers with top-quality service by helping
them understand and meet their tax responsibilities and
enforcing the law with integrity and fairness to all.
In February 2011, the Government Accountability
Office continued to identify strategic human capital
management as a high-risk area within the Federal
Government. The Government Accountability Office
designates areas as high risk due to their vulnerability to
fraud, waste, abuse, and mismanagement or the need for
broad-based transformation of key Government
programs and operations. Similarly, the Treasury
Inspector General for Tax Administration (TIGTA) has designated human capital as one of the
top 10 major management challenges facing the IRS since Fiscal Year (FY) 2002.
In FY 2009 we reported,2 in an overall assessment of the actions the IRS was taking to address
human capital issues, that IRS executives needed to: 1) lead the agency to act as “one IRS” to
strategically address its human capital issues; 2) balance the need for a more strategic focus on
human capital issues with the need to continue addressing day-to-day issues that affect the
IRS workforce; 3) evaluate the success of human capital initiatives and make adjustments as
necessary; and 4) build upon the momentum gained through the IRS’s recent emphasis on human
capital issues. This review provides the status of actions taken in response to TIGTA
recommendations related to human capital made in audit reports issued since FY 2009,3 the


1
  Human capital is used to describe the skills, abilities, and contributions of the employees in an agency.
2
  TIGTA, Ref. No. 2009-10-118, To Address Its Human Capital Challenge, the Internal Revenue Service Needs to
Focus on Four Key Areas (Aug. 2009).
3
  See Appendix IV for a list of TIGTA human capital–related audit reports considered as part of this review.
                                                                                                      Page 1
                          Improvements Have Been Made to Address
                      Human Capital Issues, but Continued Focus Is Needed



status of the IRS’s implementation of the recommendations of an IRS task force, and the
TIGTA’s observations on the IRS’s current human capital challenges.
This review was performed at the IRS Human Capital Office Headquarters in Washington, D.C.,
during the period May through September 2012. Prior audits referenced in this report, as well as
additional work we performed to supplement our prior audits, was conducted in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                           Page 2
                            Improvements Have Been Made to Address
                        Human Capital Issues, but Continued Focus Is Needed




                                    Results of Review

Since FY 2009, the IRS reports that it has completed corrective actions for more than 75 percent
of TIGTA’s recommendations related to human capital and more than 90 percent of the
recommendations made by an IRS-led task force formed to address the IRS’s most serious
workforce issues. TIGTA audits issued since FY 2009 have also shown that the IRS is making
progress in addressing human capital issues. Despite progress, the IRS is facing many internal
and external factors that point to the need to maintain a consistent focus on human capital. In
addition, the IRS has outstanding corrective actions in response to TIGTA human capital reports
that require a continued focus by IRS executive management. While difficult, successfully
addressing human capital issues will assist the IRS in effectively delivering tax administration.

Progress Has Been Made in Addressing Human Capital Issues
Since FY 2009, the IRS has made progress in the following areas to address human capital
issues:
       Implementing Corrective Actions in Response to Recommendations Made As the
        Result of TIGTA Audits of Human Capital Issues – For TIGTA audits conducted in
        the human capital area since FY 2009, the IRS reports that it has completed
        36 (78 percent) of 46 corrective actions in response to TIGTA recommendations.4
        Corrective actions include developing measures to assess whether recruitment strategies
        are achieving their desired outcomes and assessing the impact of the
        IRS Pay-for-Performance System on recruiting, retaining, and motivating highly
        skilled leaders.
       Addressing Recommendations Made by the Workforce of Tomorrow Task Force
        and As a Result of Workforce Summits – In FY 2009, we reported that the IRS
        Commissioner had formed the Workforce of Tomorrow Task Force in September 2008 to
        address the IRS’s most serious workforce issues so that the IRS would have the necessary
        leadership and workforce in place to address future challenges.5 Since that time, the IRS
        developed a process to track actions taken in response to the 58 Task Force
        recommendations. According to IRS reports, the IRS has addressed 53 (91 percent) of
        the 58 Task Force recommendations as of July 2012.6 The IRS has also completed work

4
  See Appendix V.
5
  TIGTA, Ref. No. 2009-10-118, To Address Its Human Capital Challenge, the Internal Revenue Service Needs to
Focus on Four Key Areas (Aug. 2009).
6
  One recommendation was being realigned with another committee and the remaining four recommendations were
determined to be not actionable, mostly due to budget constraints.
                                                                                                     Page 3
                             Improvements Have Been Made to Address
                         Human Capital Issues, but Continued Focus Is Needed



        on 21 (81 percent) of 26 recommendations developed from Workforce Summits, e.g.,
        development of web-based leadership development plans to help current and aspiring
        leaders in building skills.7
In addition to implementing our recommendations and Workforce of Tomorrow
recommendations, our audits have shown that the IRS has made progress in the following areas.
       Recruiting – Prior to FY 2009, the IRS’s recruitment activities were decentralized and
        focused on short-term hiring goals. In addition, IRS business units noted that they had
        not always been able to replace all of the mission-critical8 employees they were losing,
        and recruiters believed that their efforts were not always directed at the most productive
        activities and locations.9 In September 2010, we reported that the IRS made
        improvements by developing a comprehensive agency-wide recruitment strategy and
        completing many of the key actions recommended by the Office of Personnel
        Management. For example, the IRS created an agency brand and marketing strategies.
        Collectively, the improvements should place the IRS in a better position to identify and
        attract qualified candidates, both now and in the future.10 While the IRS is not currently
        hiring as much as it once had, the IRS still hires a significant number of employees
        yearly. Given the current budget environment and the resulting need to do more with
        fewer resources, a strategic and efficient approach to recruiting is key and increases the
        IRS’s ability to hire the most qualified employees capable of providing taxpayers the best
        possible quality service needed to meet their tax responsibilities.
       Hiring – In June 2009, the IRS reported it took more than five months (157 calendar
        days) to hire an employee from outside the Government for a single open position. The
        IRS improved the hiring process and developed a successful strategy for reducing the
        amount of time it takes to hire employees. Both the IRS Human Capital Office and
        various operating divisions took actions to reduce hiring timelines through system
        improvements, the use of hiring timeline tools, and monitoring in-process hiring.11 By
        the third quarter of FY 2012, the IRS reported that it took an average of 54 calendar days


7
  Four of the remaining five recommendations are in progress and one is on hold pending negotiations with the
National Treasury Employees Union.
8
  Mission-critical occupations are those few occupations that comprise the unique core competencies of the IRS and
have the greatest direct impact on the agency’s ability to meet its mission.
9
  TIGTA, Ref. No. 2009-10-025, An Agency-Wide Recruitment Strategy and Effective Performance Measures Are
Needed to Address Future Recruiting Challenges (Feb. 2009).
10
   TIGTA, Ref. No. 2010-10-113, Improvements Have Been Made to the Recruitment Process, but Continued Focus
and Additional Enhancements Are Needed (Sept. 2010).
11
   TIGTA, Ref. No. 2011-10-089, The Human Capital Office Improved the Hiring Process, but Additional Actions
Can Be Taken to Better Monitor Hiring Timelines (Aug. 2011), and TIGTA, Ref. No. 2013-10-007, New Employees
Are Being Hired More Quickly; However, Improvements Are Needed to Correct Some Hiring Monitoring Data
(Oct. 2012).
                                                                                                          Page 4
                              Improvements Have Been Made to Address
                          Human Capital Issues, but Continued Focus Is Needed



         to hire all new employees.12 In the current budget environment, a strategic and efficient
         approach to hiring is necessary to assist the IRS with effectively hiring highly qualified
         applicants in a timely manner to provide America’s taxpayers with top-quality service.
        Onboarding – Prior to FY 2009, the IRS had not developed a comprehensive onboarding
         process to integrate new employees into the workforce. The IRS took actions to move
         from a one-day orientation to a more strategic, corporate experience. The IRS developed
         policies and procedures for onboarding new employees that were consistent with best
         practices recommended by the Office of Personnel Management and the Partnership for
         Public Service. This guidance included a toolkit and website that incorporates industry
         best practices for effectively integrating new employees into the IRS.13 In today’s current
         budget environment, a strategic approach to onboarding is needed to ensure that new
         employees become productive more quickly and to reduce the high cost of turnover.
         Taking into account the cost of recruiting, interviewing, hiring, training, reduced
         productivity, etc., turnover may cost organizations 30 to 50 percent of the annual salary
         of entry-level employees, 150 percent for mid-level employees, and up to 400 percent for
         specialized, high-level employees.14
        Evaluating Human Capital Programs – Prior to FY 2009, the IRS had not always had
         the capability to measure the success of its human capital goals. Human capital measures
         that were developed were not always linked to strategic goals and measures and,
         therefore, did not allow IRS management to assess the progress of the agency’s human
         capital efforts. For instance, the IRS had not determined the overall leadership strength
         of each operating division. In FY 2010, the IRS issued its Human Capital Business Plan
         that included goals, desired outcomes, and measures. We reviewed the Plan and
         determined it aligned with the Department of the Treasury Human Capital Strategic Plan
         and the IRS Strategic Plan. We also determined that the IRS’s human capital
         performance measures were aligned with and supported the Human Capital Assessment
         and Accountability Framework15 standards. Since issuing the Human Capital Business
         Plan, the IRS has tracked its progress using measures via quarterly Business Performance

12
   Results for the period April through June 2012, per the third-quarter report to the Department of the Treasury
provided by the IRS Human Capital Office. The timeline begins when the hiring manager submits an approved
request to hire; therefore, it does not include the time for announcements to prequalify applicants for filing season
hiring, such as standing registers. During this period, the IRS did not conduct any hiring to fill a large number of
positions prior to scheduled training.
13
   TIGTA, Ref. No. 2012-10-091, The Onboarding Process Has Improved, but Additional Steps Should Be Taken to
Ensure Employees Have the Tools, Resources, and Knowledge to Be Successful and Productive (Aug. 2012).
14
   Partnership for Public Service, Getting On Board: A Model for Integrating and Engaging New Employees
(May 2008).
15
   The Framework was established by the United States Office of Personnel Management. It provides consolidated
guidance for agencies to transform human capital management and understand what is to be done, how it can be
done, and how to gauge progress and results. It also presents the expectations that guide the agency’s assessment of
human capital efforts.
                                                                                                             Page 5
                              Improvements Have Been Made to Address
                          Human Capital Issues, but Continued Focus Is Needed



         Reviews. For instance, to monitor its progress in developing and promoting leaders, the
         IRS measures and tracks bench strength.16 Tracking and evaluating measures allows the
         IRS to determine if human capital strategies are productive and, if not, to adjust the
         strategies as soon as possible to improve results.

Continued Focus Is Needed to Address Human Capital Issues
Despite progress on many fronts, the IRS is facing many internal and external factors that point
to the need to maintain a consistent focus on human capital. In addition, the IRS has outstanding
corrective actions in response to TIGTA human capital reports that require a continued focus by
IRS executive management.

Internal and external factors require continued focus on human capital issues
The IRS faces many current internal and external factors that increase the importance of the IRS
making progress in human capital management a priority. While difficult, successfully
addressing human capital issues will assist the IRS in effectively delivering tax administration.
The IRS is facing significant budget challenges
Budget constraints have resulted in fewer personnel to accomplish the IRS’s mission. The IRS
FY 2012 budget totaled $11.8 billion, which is a 2.1 percent decrease from FY 2011 and the
second consecutive budget reduction. To begin meeting the decreased budget, the IRS
announced that it would reduce the amount of funds spent on training, travel, contracts, supplies,
etc. However, the IRS was unable to meet the level of budget reduction enacted for FY 2012
without substantially reducing its workforce. Therefore, the IRS instituted an agency-wide
hiring freeze and has been replacing employees leaving the agency on an exception-only basis.
Savings from employees leaving the IRS through normal attrition were not sufficient to meet the
FY 2012 budget; therefore, the IRS offered early retirements and buyouts to a limited set of
employees, mostly in positions that did not involve direct services or enforcement interactions
with taxpayers.17 The IRS accepted 1,620 early retirements and buyouts, which represents a
significant challenge since many of these employees possessed unique skills and institutional
knowledge that will be hard to replace.
Overall, budget cuts left the IRS with 5,000 fewer employees for the 2012 Filing Season
compared to the previous filing season,18 even as the number of tax returns it processed
continued to rise and the number of identity theft fraud cases the IRS worked soared. The total



16
   The competence and number of employees ready to fill vacant leadership and other positions.
17
   The majority of early retirements and buyouts offered did not affect mission-critical positions. See Appendix VI,
Figure 2.
18
   Filing Season and FY 2013 Budget Request, 112th Cong. (Mar. 2012) (statement of Douglas H. Shulman).
                                                                                                             Page 6
                               Improvements Have Been Made to Address
                           Human Capital Issues, but Continued Focus Is Needed



IRS workforce fell to 97,717 at the end of FY 2012, a 9 percent drop from 107,622 at the end of
FY 2010.19
With a shrinking workforce and budget, the IRS will be challenged to continue some of the
human capital work it has started. For example, in FY 2012, the IRS eliminated funding for its
Tuition Assistance Program, which the IRS had evaluated and determined that participants
(compared to the general IRS population) showed lower attrition, more promotions, higher
performance ratings, and higher employee engagement scores.
Many of the IRS’s most experienced employees are reaching retirement age
Like many Federal agencies, the IRS is faced with the major challenge of replacing existing
talent because of a large number of retirements expected over the next several years. This
challenge is especially evident in the IRS’s leadership ranks, where IRS data show that more
than one-third of all executives and almost 20 percent of nonexecutive managers are currently
eligible for retirement. As shown in Figure 1, IRS data indicate that within five fiscal years,
nearly 70 percent of all IRS executives and nearly one-half of the IRS’s nonexecutive managers
are projected to be eligible for retirement. Overall, about 40 percent of the IRS’s employees will
be retirement eligible within five fiscal years.20
                             Figure 1: Percentage of the IRS Workforce
                                 Eligible to Retire (FYs 2013–2017)




                Source: IRS data from the IRS Human Resources database.



19
     See Appendix VI, Figure 1.
20
     See Appendix VI, Figures 4 and 5.
                                                                                           Page 7
                              Improvements Have Been Made to Address
                          Human Capital Issues, but Continued Focus Is Needed



The work of the IRS is becoming more complex
In addition to facing budget cuts and the potential retirement of many experienced employees,
the work performed by IRS employees continually requires greater expertise as tax laws become
more complex and far reaching. For example, the Patient Protection and Affordable Care Act21
contains an extensive array of tax law changes that will present many challenges. The IRS will
administer the law’s numerous tax provisions and estimates that at least 42 provisions will either
add to or amend the tax code and at least eight will require the IRS to build new processes that
do not exist within current tax administration. Compounding matters, the FY 2012 IRS budget
included 856 full-time equivalents22 dedicated to the implementation of the Affordable Care Act
that were directly funded by the Department of Health and Human Services. The FY 2013 IRS
budget includes no full-time equivalents directly funded by the Department of Health and
Human Services.
Moreover, the IRS will be challenged to provide service to honest taxpayers while detecting and
stopping fraud and addressing identity theft. We have reported that the IRS needs to make
improvements to stop billions of dollars in fraudulent or improper tax refunds resulting from
identity theft and erroneous claims for tax credits.23 The additional work of combating identity
theft fraud and assisting the numerous victims will further challenge a smaller IRS. For
example, most employees who currently work on identity theft fraud cases are also telephone
assistors trained to help taxpayers. While responding to the increased number of identity theft
cases, the same employees are also assigned to answer taxpayer calls on Mondays during tax
filing season, trying to cut call waiting times that have risen to an average of 10 minutes. The
IRS has dedicated 400 additional employees to work identity theft cases. However, because of
limited resources and the high demand for telephone assistance, the IRS plans to continue to
have assistors who work identity theft cases also answer telephones.
The IRS is undergoing a change in leadership
Commissioner Shulman left the IRS when his term expired in November of 2012. During
Commissioner Shulman’s term, he formed the Workforce of Tomorrow Task Force to address
the IRS’s most serious workforce issues. In addition, much progress has been made on human
capital issues during his tenure. Interim leadership and the next Commissioner will need to
ensure that actions are taken to build on the momentum gained during Commissioner Shulman’s
term and to effectively address the internal and external factors mentioned above.


21
   Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
22
   A measure of labor hours in which one full-time equivalent is equal to eight hours multiplied by the number of
compensable days in a particular fiscal year. For FY 2008, one full-time equivalent was equal to 2,096 staff hours;
for FYs 2007, 2009, and 2010, one full-time equivalent was equal to 2,088 staff hours.
23
   TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting From
Identity Theft (July 2012).
                                                                                                            Page 8
                             Improvements Have Been Made to Address
                         Human Capital Issues, but Continued Focus Is Needed



Executive management will need to continue focusing on corrective actions in
response to TIGTA human capital reports
In addition to facing internal and external factors, the IRS has outstanding corrective actions in
response to TIGTA human capital recommendations that require a continued focus by IRS
executive management. For example, the IRS is currently working on corrective actions in the
following areas.
        Onboarding – As mentioned previously, the IRS developed policies and procedures for
         onboarding new employees that were consistent with best practices and developed
         guidance, including a toolkit and website, for effectively integrating new employees into
         the IRS. However, managers who we interviewed were not following best practices
         identified in the comprehensive guidance the IRS had developed for them. As a result,
         some best practices that would help new employees feel welcome and help them become
         more productive were not fully implemented. For example, one-quarter of the new
         employees we contacted were not assigned a coach or mentor when they arrived, and
         approximately 29 percent stated that the onboarding experience did not accelerate their
         ability to reach full productivity.24 The IRS reports that it will complete corrective
         actions related to our findings by February 2013.
        Employee Tax Compliance – Although the IRS developed a computer application to
         detect employees who may have not timely filed or timely paid their taxes, we
         determined that the application was not detecting all potential noncompliance. We
         independently reviewed IRS computer files over a two-year period and identified
         133 employees who were potentially noncompliant with their taxes and were not detected
         by the computer application.25 To maintain public confidence in the agency trusted with
         administering the Nation’s tax system, the IRS must ensure that potential misconduct
         concerning noncompliance with tax laws is identified and addressed. The IRS reports
         that it will complete corrective actions to review a computer application and make
         necessary changes to ensure that all cases involving potentially noncompliant employees
         are identified and resolved by September 2013. However, the IRS rejected our
         recommendation to conduct a trend analysis of employee noncompliance with tax laws.
         We continue to believe it would be prudent for the IRS to conduct a trend analysis to
         identify changing employee patterns. If compliance rates were to shift toward more
         noncompliance, the IRS would not have the detailed information to determine whether
         additional educational efforts or proactive noncompliance detection projects are needed.



24
   TIGTA, Ref. No. 2012-10-091, The Onboarding Process Has Improved, but Additional Steps Should Be Taken to
Ensure Employees Have the Tools, Resources, and Knowledge to Be Successful and Productive (Aug. 2012).
25
   TIGTA, Ref. No. 2011-10-047, Employees Are Provided Sufficient Information on Their Tax Responsibilities, but
Additional Actions Are Needed to Detect All Noncompliant Employees (May 2011).
                                                                                                        Page 9
                              Improvements Have Been Made to Address
                          Human Capital Issues, but Continued Focus Is Needed



        Revenue Officer26 Hiring – According to the Office of Personnel Management,27 an
         effective workforce plan includes identifying the human capital required to meet
         organizational goals, conducting analysis to identify competency gaps, developing
         strategies to address human capital needs and close competency gaps, and ensuring the
         organization is appropriately structured. However, when estimating staffing levels of
         revenue officers needed in future years, the IRS does not determine the number of
         revenue officers needed to address the available workload. Instead, the level is estimated
         based primarily on a budget figure provided by the IRS Chief Financial Officer. Without
         effective workforce planning, IRS decisions regarding the size and allocation of revenue
         officers could result in arbitrary and subjective resource actions, which may have
         negative effects on IRS programs and services.28 The IRS reports that it will complete
         corrective actions to establish rules for optimizing revenue officer staffing levels to
         address the Collection function’s potentially collectible inventory by March 2013.29
        Recruitment and Retention Incentives – Since FY 2008, IRS management improved its
         administration of the use of recruitment and retention incentives. However, the IRS did
         not have a methodology to assess the impact of using recruitment and retention incentives
         to assist management in its effort to meet long-term workforce planning goals.30 Without
         analysis to determine the impact of the use of incentives on workforce planning, the IRS
         risks using taxpayer funds for incentives without assurance that they are helping the IRS
         achieve its hiring of the right people, at the right place, at the right time. The IRS reports
         that it will complete corrective actions related to our findings by December 2012.




26
   Revenue officers collect taxes due and are critical positions for achieving the IRS’s mission.
27
   The Office of Personnel Management Human Capital Assessment and Accountability Framework Resource
Center – Workforce Planning (Strategic Alignment System) (Sept. 2005).
28
   TIGTA, Ref. No. 2011-30-039, Challenges Remain to Balance Revenue Officer Staffing With Attrition and
Workload Demands (May 2011).
29
   We also reported that the Collection function does not collect the information used to compare the actual
performance of newly hired revenue officers with the projected performance in its budget justification. The IRS
rejected our recommendation to develop methods to compile the data necessary to track actual performance results
with projected performance results to improve future budget justifications because it stated that it was already taking
actions to address a similar recommendation made by the Government Accountability Office. However, we were
not provided plans during our audit so we could not determine whether the methodology in these plans addressed
our recommendation.
30
   TIGTA, Ref. No. 2011-10-107, The Administration of Recruitment and Retention Incentives Has Improved, but
Additional Actions Should Be Taken (Sept. 2011).
                                                                                                             Page 10
                            Improvements Have Been Made to Address
                        Human Capital Issues, but Continued Focus Is Needed



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to provide the status of actions taken in response to TIGTA
recommendations related to human capital made in audit reports issued since FY1 2009, the
status of the IRS’s implementation of the recommendations of an IRS task force, and the
TIGTA’s observations on the IRS’s current human capital2 challenges. To accomplish this
objective, we:
I.      Determined the progress made by the IRS in the human capital area.
        A. Reviewed the Department of the Treasury Joint Audit Management Enterprise
           System to determine the status of corrective actions taken to TIGTA
           recommendations made in human capital reports issued since FY 2009. We did not
           perform audit work to determine whether corrective actions were completed and
           resolved findings reported in the original audits.
        B. In addition to TIGTA recommendations, reviewed TIGTA human capital–related
           reports issued since FY 2009 to identify any positive steps taken by IRS management
           in the human capital area.
        C. Obtained and reviewed the current Department of the Treasury Human Capital
           Strategic Plan, IRS Strategic Plan, IRS Human Capital Business Plan, and other
           documentation to assess IRS plans for meeting its human capital challenge into the
           future and for alignment between the plans.
        D. Determined the status of the Workforce of Tomorrow Task Force recommendations
           and how they were being tracked.
        E. Determined how many Workforce Summits have been held. We evaluated how the
           IRS is tracking the action items the Workforce Summits identified and determined the
           status of the action items.




1
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
2
  Since FY 2002, the TIGTA has identified human capital as one of the top 10 management and performance
challenges for the IRS.
                                                                                                     Page 11
                             Improvements Have Been Made to Address
                         Human Capital Issues, but Continued Focus Is Needed



II.     Determined what human capital challenges continue to exist.
        A. Reviewed TIGTA testimony on the IRS’s FY 2013 budget request3 to identify the key
           internal and external factors affecting the IRS’s ability to maintain a quality
           workforce.
        B. Obtained and reviewed IRS management reports regarding recent buyouts that could
           affect the ability of the IRS to accomplish its mission.
        C. Performed research, e.g., TIGTA audit reports and congressional testimony, and
           determined how the IRS’s current budget constraints may affect its level of service
           and ability to detect and deter fraud.
        D. Obtained the following data from the IRS Human Resources database and determined
           that the data were sufficiently reliable for purposes of this report.4
             1. Percentage of IRS nonmanagement employees, nonexecutive managers, and
                executives eligible to retire for FYs 2013–2017.
             2. Size of the total IRS workforce for FYs 2008–2012.
             3. Percentage of mission-critical5 employees compared to the total IRS workforce
                for FYs 2008–2012.
             4. Number of revenue agents, tax technicians, appeals officers, revenue officers,
                contract specialists, and information technology specialists for FYs 2008–2012.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. The majority of this review was
limited to reviewing and assessing the results of prior audits, while part of our review involved
identifying and analyzing human capital measures and determining the status of the Workforce
of Tomorrow Task Force. For this part of our audit, we determined that the following internal
controls were relevant to our audit objective: the IRS 2009–2013 Strategic Plan, the IRS Human
Capital Business Plan 2010–2014, the IRS Human Capital Office Business Performance
quarterly review process, processes for tracking the Workforce of Tomorrow Task Force

3
  Budget Hearing – Office of Treasury IG and Office of Treasury IG for Tax Administration, Hearing Before the
 Committee on Appropriations Subcommittee on Financial Services and General Government, 112th Cong.
(Mar. 2012) (statement of the Honorable J. Russell George).
4
  We validated the Human Resource database by researching a statistical sample of 95 employees to determine if the
human resources information matched information on the Treasury Integrated Management Information System.
5
  Mission-critical occupations are those few occupations that comprise the unique core competencies of the IRS and
have the greatest direct impact on the agency’s ability to meet its mission.
                                                                                                         Page 12
                         Improvements Have Been Made to Address
                     Human Capital Issues, but Continued Focus Is Needed



recommendations and subsequent actions, and processes for tracking human capital measures.
We evaluated these controls by reviewing strategic documents relating to human capital issues,
reviewing IRS Human Capital Office Business Performance quarterly review documentation,
and interviewing IRS management.




                                                                                        Page 13
                        Improvements Have Been Made to Address
                    Human Capital Issues, but Continued Focus Is Needed



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Marjorie A. Stephenson, Lead Auditor
Melinda H. Dowdy, Auditor
Carol A. Rowland, Auditor




                                                                                   Page 14
                        Improvements Have Been Made to Address
                    Human Capital Issues, but Continued Focus Is Needed



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner-Attn: Chief of Staff C
IRS Human Capital Officer OS:HC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       IRS Human Capital Officer OS:HC




                                                                       Page 15
                         Improvements Have Been Made to Address
                     Human Capital Issues, but Continued Focus Is Needed



                                                                               Appendix IV

              Treasury Inspector General for Tax
             Administration Human Capital Reports
              Considered As Part of This Review

The following 20 TIGTA audit reports were considered as part of this review.
TIGTA, Ref. No. 2010-IE-R001, Inspection of the Internal Revenue Service’s Pandemic
Influenza Preparedness Plan (Jan. 2010). 
TIGTA, Ref. No. 2010-IE-R002, The Internal Revenue Service Restructuring and Reform Act of
1998 Was Substantially Implemented, but Challenges Remain (Mar. 2010).
TIGTA, Ref. No. 2010-10-054, Additional Actions Are Needed to Measure and Evaluate the
Impact of the Pay-for-Performance System on Recruiting, Retaining, and Motivating Highly
Skilled Leaders (May 2010).
TIGTA, Ref. No. 2010-IE-R004, Inspection of the IRS’s Pandemic Influenza Preparedness Plan
(Phase II) (May 2010).
TIGTA, Ref. No. 2010-10-113, Improvements Have Been Made to the Recruitment Process, but
Continued Focus and Additional Enhancements Are Needed (Sept. 2010).
TIGTA, Ref. No. 2011-10-015, The Impact of the Frontline Leader Readiness Program on
Succession Planning Should Be Determined (Mar. 2011).
TIGTA, Ref. No. 2011-10-047, Employees Are Provided Sufficient Information on Their Tax
Responsibilities, but Additional Actions Are Needed to Detect All Noncompliant Employees
(May 2011).
TIGTA, Ref. No. 2011-30-039, Challenges Remain to Balance Revenue Officer Staffing With
Attrition and Workload Demands (May 2011).
TIGTA, Ref. No. 2011-IE-R006, A Follow-Up Evaluation of the Worker’s Compensation
Program in the Internal Revenue Service (June 2011).
TIGTA, Ref. No. 2011-10-072, Additional Actions and Data Are Needed to Further Analyze the
Size and Skills of the Acquisition Workforce (July 2011).
TIGTA, Ref. No. 2011-10-089, The Human Capital Office Improved the Hiring Process, but
Additional Actions Can Be Taken to Better Monitor Hiring Timelines (Aug. 2011).


                                                                                      Page 16
                        Improvements Have Been Made to Address
                    Human Capital Issues, but Continued Focus Is Needed



TIGTA, Ref. No. 2011-10-107, The Administration of Recruitment and Retention Incentives Has
Improved, but Additional Actions Should Be Taken (Sept. 2011).
TIGTA, Ref. No. 2012-10-006, Internal Revenue Service Diversity Demographics Compare
Favorably With Other Federal Agencies’ Senior Executive Service Ranks (Nov. 2011).
TIGTA, Ref. No. 2012-IE-R002, Internal Revenue Service Contract Security Guard Workforce
Inspection (Jan. 2012).
TIGTA, Ref. No. 2012-IE-R003, Inspection of the Employee Pre-Screening Process (Feb. 2012).
TIGTA, Ref. No. 2012-10-040, Opportunities Exist to Reduce Lockbox Fingerprinting Costs
(Apr. 2012).
TIGTA, Ref. No. 2012-10-043, Future Improvement Could Further Increase the Benefits of the
Tuition Assistance Program (Apr. 2012).
TIGTA, Ref. No. 2012-10-091, The Onboarding Process Has Improved, but Additional Steps
Should Be Taken to Ensure Employees Have the Tools, Resources, and Knowledge to Be
Successful and Productive (Aug. 2012).
TIGTA, Ref. No. 2012-20-107, The Information Technology Organization Needs to Implement a
Competency Database to Efficiently Manage Its Workforce (Sept. 2012).
TIGTA, Ref. No. 2013-10-007, New Employees Are Being Hired More Quickly; However,
Improvements Are Needed to Correct Some Hiring Monitoring Data (Nov. 2012).




                                                                                    Page 17
                                Improvements Have Been Made to Address
                            Human Capital Issues, but Continued Focus Is Needed



                                                                                                   Appendix V

     Status of Corrective Actions to Treasury Inspector
       General for Tax Administration Human Capital
      Recommendations Made Since Fiscal Year 2009

Below is a list of 46 recommendations we have made in the human capital area in TIGTA reports
issued1 since FY 2009. According to the Department of the Treasury’s system for tracking IRS
actions taken in response to our recommendations, the IRS has: 1) completed corrective actions
for 36 (78 percent) of 46 recommendations, 2) scheduled corrective action due dates for eight
(17 percent) of 46 recommendations, and 3) rejected two (4 percent) of 46 recommendations.

                                                                                                              IRS
 TIGTA                                                                                                     Corrective
 Report                                                                                                     Action
 Number                                      TIGTA Recommendation                                           Status
2010-10-054      The IRS Workforce Progression and Management Division Director should                     Completed
                 ensure that additional research is conducted on two contractor observations.              12/13/2010   D.4.1




                 Specifically, the IRS Human Capital Office should perform further analysis to
                 determine why frontline managers may be concerned with their pay and are
                 significantly less engaged and less satisfied than senior managers and
                 department managers. It should also perform further analysis to determine why
                 there are significant increases in the number of employees moving from the
                 Pay-for-Performance System to General Schedule Pay System positions to
                 assess whether pay-for-performance issues are a contributing factor.




1
    See Appendix IV for a list of TIGTA human capital–related audit reports considered as part of this review.
                                                                                                             Page 18
                              Improvements Have Been Made to Address
                          Human Capital Issues, but Continued Focus Is Needed




                                                                                                            IRS
    TIGTA                                                                                                Corrective
    Report                                                                                                Action
    Number                                  TIGTA Recommendation                                          Status
2010-10-054    The IRS Workforce Progression and Management Division Director should                     Completed
               ensure that additional data are collected to assess the impact the IRS                    12/13/2010
               Pay-for-Performance System is having on recruiting, retaining, and motivating
               highly skilled leaders. Specifically, the following data should be collected and
               tracked: the percentage of individual performance plans (from a sample of
               performance plans) with individual goals that are linked to the agency’s
               mission to determine if a manager’s work is appropriately aligned to the IRS
               mission, the percentage of individual performance plans (from a sample of
               performance plans) with credible performance targets to assess whether
               managers are accountable for achieving them, the ratio of high-quality
               applicants to the total number of eligible applicants to assess the IRS’s ability
               to attract high-quality new hires over time, turnover rates for both high
               performance ratings (fours and fives out of a five-point scale) and low
               performance ratings (ones and twos) to assess whether high performers are
               being retained and low performers are being appropriately addressed, and the
               number of adverse actions and appeals related to performance ratings of IRS
               Pay-for-Performance System managers to assess the fairness of the pay-for-
               performance process.
2010-10-054    The IRS Human Capital Office should define a process where                                Completed
               pay-for-performance issues are assessed at least annually. Specifically, the              04/07/2011
               Pay-for-Performance Office should develop reports and other monitoring tools
               to assist in identifying issues that may require further analysis. The IRS
               Human Capital Office and the Human Capital Board should determine the best
               methodology for using these reports and monitoring tools to ensure that
               Pay-for-Performance System issues are elevated and addressed.
2010-10-113    In addition to continuing to focus on implementing the nine best practices to             Completed
               build a fully effective recruiting program, the Director of the IRS Recruitment           02/07/2011
               Office should enhance the performance measurement process by developing
               measures for the 10 recruitment strategies needed to assess whether they are
               achieving desired outcomes, incorporate all applicable measures into the
               PeopleTrak system2 to ensure that the IRS has the information needed to
               manage the recruitment program, and establish completion dates for
               milestones in the recruitment office action plans to serve as targets for
               implementing the items and monitoring the items until they are completed.


2
 The PeopleTrak system provides the IRS with the information it needs to measure the results of its recruiting
efforts.
                                                                                                           Page 19
                           Improvements Have Been Made to Address
                       Human Capital Issues, but Continued Focus Is Needed




                                                                                                  IRS
 TIGTA                                                                                         Corrective
 Report                                                                                         Action
 Number                                TIGTA Recommendation                                     Status
2010-IE-R004   The Chief, Submission Processing, Wage and Investment Division, should          Completed
               implement a process to provide senior management of campuses with daily         05/26/2010
               information on attendance levels at the facility they manage.
2010-IE-R004   In expanding the teleworking program of the IRS, the Chief Human Capital        Completed
               Officer should include a provision for directed teleworking of qualified        12/16/2010
               employees in an emergency.
2011-10-015    The IRS Human Capital Officer should require an assessment of readiness         Completed
               for management, such as the Leadership Succession Review, at the end of         08/01/2011
               the Frontline Leader Readiness Program for those program graduates
               interested in a frontline manager position.
2011-10-015    The Chief, Criminal Investigation, and the IRS Human Capital Officer            Completed
               should analyze the results of the readiness assessments to determine whether    07/14/2011
               the Frontline Leader Readiness Program needs to be changed to better
               prepare participants for frontline management or whether the application
               process needs to be revised.
2011-10-015    The Chief, Criminal Investigation, and the IRS Human Capital Officer            Completed
               should develop a plan of what measures are needed to determine the              09/06/2011
               Frontline Leader Readiness Program’s impact on succession planning and
               how to best collect the data necessary to quantify those measures. This plan
               should include, but not be limited to, measures such as promotions of
               program graduates to frontline manager positions on a fiscal year basis in
               order to determine a measurable placement rate for the program from year to
               year; costs associated with the training, including estimated time expended
               and all travel costs, to aid in determining the costs versus benefits of the
               program; and the percentage of newly selected permanent frontline
               managers who participated in the program compared to the percentage who
               did not participate.
2011-10-015    The IRS Human Capital Officer should establish a data collection process to     Completed
               capture all necessary information from the operating divisions/functional       09/28/2011
               offices related to the number of their respective graduates and the number of
               promotions on a fiscal year basis to accurately measure the impact of the
               Frontline Leader Readiness Program on frontline management.




                                                                                                 Page 20
                         Improvements Have Been Made to Address
                     Human Capital Issues, but Continued Focus Is Needed




                                                                                               IRS
 TIGTA                                                                                      Corrective
 Report                                                                                      Action
 Number                               TIGTA Recommendation                                   Status
2011-10-047   To ensure that all cases involving potentially noncompliant employees are        Due
              identified and resolved, the IRS Human Capital Officer should review the      09/15/2013
              Employee Tax Compliance Program’s computer application with the
              Information Technology organization (formerly the Modernization and
              Information Technology Services organization) programmers and make
              necessary changes.
2011-10-047   To ensure that all cases involving potentially noncompliant employees are     Completed
              identified and resolved, the IRS Human Capital Officer should work the        06/28/2011
              additional 133 cases identified by the TIGTA to determine whether
              disciplinary action is warranted.
2011-10-047   To ensure that changes in the direction of the Employee Tax Compliance        Completed
              Program are clearly communicated and documented, the IRS Human Capital        06/28/2011
              Officer should revise the goals and mission of the Employee Tax
              Compliance Program to align with how the program is currently operating.
2011-10-047   To determine whether future changes are needed in the direction of the         Rejected
              Employee Tax Compliance Program, the IRS Human Capital Officer should
              conduct trend analysis of employee noncompliance with tax laws to include,
              but not be limited to periodic analysis of employee noncompliance trends
              over multiple tax years; analysis of referrals received by the Employee Tax
              Compliance Branch that would not have been identified by the Employee
              Tax Compliance computer application; and more detailed analyses of
              noncompliance identified by the Employee Tax Compliance computer
              application.




                                                                                              Page 21
                          Improvements Have Been Made to Address
                      Human Capital Issues, but Continued Focus Is Needed




                                                                                                   IRS
 TIGTA                                                                                          Corrective
 Report                                                                                          Action
 Number                                TIGTA Recommendation                                      Status
2011-10-072   The Deputy Commissioner for Operations Support and the Deputy                     Completed
              Commissioner for Services and Enforcement should develop and document             03/21/2012
              an IRS-wide approach to ensure that the IRS effectively monitors the
              adequacy of its acquisition workforce. The approach should include, but not
              be limited to, the following: adopting and communicating an IRS-wide
              definition of the acquisition workforce that reflects the employees
              performing acquisition-related functions; identifying employees performing
              acquisition-related functions on an ongoing basis; assessing what data on
              current acquisition workforce efforts and employees, such as workload level,
              attrition data, and skills gaps, would help inform workforce planning efforts;
              developing a strategy to collect that information (this strategy should include
              data on all IRS employees who perform acquisition-related functions);
              collecting and analyzing data to determine the number and skills of
              acquisition personnel needed for a particular workload (as not all
              requirements are uniform, this method may need to take into account the
              difference in complexity between procurement types); and developing and
              monitoring data, such as the quality of acquisition personnel’s work and the
              amount of overtime worked, to periodically ensure that the IRS has the right
              number of acquisition workforce personnel with the skills needed to
              accurately and timely complete their workload.
2011-10-089   The Director, Employment, Talent, and Security Division, IRS Human                Completed
              Capital Office, should ensure that programming is completed for web-based         09/27/2011
              time-in-process reports to allow Human Capital Office personnel and hiring
              managers in the business units to monitor announcement inventory and
              accumulated calendar days in the hiring process.
2011-10-089   The Director, Employment, Talent, and Security Division, IRS Human                Completed
              Capital Office, should provide guidance to Human Capital Office branch            11/01/2011
              offices to ensure that they understand when tools such as the timeline
              calculator, memorandums on the front of ranking and selection packages,
              and follow-up e-mail reminders should be used to fully achieve the benefits
              those tools provide.
2011-10-107   The Director, Workforce Progression and Management Division, Human                Completed
              Capital Office, should revise the non–Senior Executive Service retention          01/31/2012
              incentive request form to require details of how it is determined that an
              employee would likely leave the Federal Government in the absence of the
              incentive.


                                                                                                  Page 22
                           Improvements Have Been Made to Address
                       Human Capital Issues, but Continued Focus Is Needed




                                                                                                  IRS
 TIGTA                                                                                         Corrective
 Report                                                                                         Action
 Number                                 TIGTA Recommendation                                    Status
2011-10-107    The Director, Workforce Progression and Management Division, Human              Completed
               Capital Office, should work with the IRS business units to move                 10/17/2011
               responsibility for technical review of all non–Senior Executive Service
               recruitment and retention incentives to the IRS Human Capital Office
               Workforce Progression Management Division, Compensation and Leave
               Branch, prior to submission to the appropriate IRS official for approval.
2011-10-107    The Director, Workforce Progression and Management Division, Human              Completed
               Capital Office, should improve procedures to ensure that approvals for          12/07/2011
               significant changes to group recruitment incentives, such as decisions to
               provide additional incentives or provide incentives to employees in other
               locations, are properly documented.
2011-10-107    The Director, Workforce Progression and Management Division, Human              Completed
               Capital Office, should remind the business units annually, during the annual    10/17/2011
               review of retention incentives, of the need to terminate incentives for
               employees who change positions and no longer qualify for the incentive.
2011-10-107    The Human Capital Officer should develop a methodology to assess the               Due
               impact of the use of recruitment and retention incentives in helping IRS        12/15/2012
               management meet long-term workforce planning goals. The methodology
               should include indicators to track and evaluate the use of recruitment and
               retention incentives.
2011-30-039    The Director, Enterprise Collection Strategy, Small Business/                      Due
               Self-Employed Division, should establish rules for optimizing staffing levels   03/15/2013
               for revenue officers to address the Collection function’s potentially
               collectible inventory.
2011-30-039    The Director, Collection, Small Business/Self-Employed Division, should          Rejected
               develop methods to compile the data necessary to track actual performance
               results with projected performance results to improve future budget
               justifications.
2011-IE-R006   In addition to placing video training materials on the IRS’s intranet, the      Completed
               Human Capital Officer should consider making workers’ compensation              08/08/2011
               awareness part of the annual mandatory briefings for managers.




                                                                                                 Page 23
                          Improvements Have Been Made to Address
                      Human Capital Issues, but Continued Focus Is Needed




                                                                                                    IRS
 TIGTA                                                                                           Corrective
 Report                                                                                           Action
 Number                                TIGTA Recommendation                                       Status
2012-10-006   The Deputy Commissioner for Operations Support and the Deputy                      Completed
              Commissioner for Services and Enforcement should ensure that the IRS’s             03/15/2012
              key diversity practices are memorialized within Equity, Diversity, and
              Inclusion internal guidance (policies and procedures).
2012-10-006   The Deputy Commissioner for Operations Support and the Deputy                      Completed
              Commissioner for Services and Enforcement should consider partnering               09/28/2012
              with Federal professional executive organizations to gain additional insight
              on diversity issues in the Federal executive community, identify mentoring
              practices, and use these partnerships as a tool to recruit executive applicants.
2012-10-006   The IRS Human Capital Office should consider ways to communicate to                   Due
              employees the existence of professional executive organizations that may           01/15/2013
              assist employees in their self-development efforts toward higher-level and
              Senior Executive Service positions.
2012-10-040   The IRS Human Capital Office, in coordination with Wage and Investment                Due
              Division management, should perform an annual assessment of the number             01/15/2013
              of staff needed at each lockbox bank for each fiscal year and the additional
              number of individuals that need to be fingerprinted to ensure that
              fingerprinting charges are not excessive. This assessment could be included
              as part of the annual Readiness Package prepared by each lockbox bank or
              calculated by IRS personnel based on historical lockbox data.
2012-10-040   The IRS Human Capital Office, in coordination with Wage and Investment                Due
              Division management, should evaluate the feasibility of requiring lockbox          01/15/2013
              banks to maintain and review logs or other documentation of individuals
              fingerprinted by the banks, including reviewing them to identify potential
              employees who have been previously fingerprinted so they will not submit
              to the Office of Personnel Management a second fingerprint request for that
              individual.
2012-10-040   The IRS Human Capital Office, in coordination with Wage and Investment             Completed
              Division management, should develop a process requiring IRS personnel to           08/16/2012
              periodically review and analyze fingerprint billing data to ensure that the
              lockbox banks are not submitting fingerprinting charges more than once for
              the same individuals.




                                                                                                   Page 24
                              Improvements Have Been Made to Address
                          Human Capital Issues, but Continued Focus Is Needed




                                                                                                            IRS
    TIGTA                                                                                                Corrective
    Report                                                                                                Action
    Number                                  TIGTA Recommendation                                          Status
2012-10-040      The IRS Human Capital Office, in coordination with Wage and Investment                  Completed
                 Division management, should disseminate and clearly communicate                         06/05/2012
                 appropriate fingerprinting submission guidance to lockbox bank
                 management to help reduce improper fingerprint resubmissions to the Office
                 of Personnel Management and reduce costs to the IRS. This should include
                 the requirement that ‘unclassifiable’ fingerprint results be resubmitted with
                 the original case number to avoid unnecessary fingerprinting charges.
2012-10-040      The IRS Human Capital Office, in coordination with Wage and Investment                  Completed
                 Division management, should evaluate the use of electronic fingerprints at              06/05/2012
                 all lockbox banks and assess the business need of requiring lockbox banks to
                 fully use this process to reduce fingerprinting costs in the future.
2012-10-043      The Director, Leadership Education and Delivery Services Division, Human                Completed
                 Capital Office, should consider the following recommendations in the event              06/21/2012
                 that the IRS decides to fund a tuition assistance program in the future: 1)
                 develop better document goals that are consistent with the mission of the
                 program and develop cost-effective measures to assess whether goals are
                 being achieved; 2) increase the involvement of the participant’s frontline
                 management in a manner that will provide better assurance that courses are
                 consistent with a participant’s existing job duties or career goals; 3) require
                 that courses be taken only from vendors meeting a minimum standard of
                 quality, e.g., institutions that are accredited by the Department of Education;
                 4) ensure that program guidelines require that participants submit proof of
                 course completion documentation (including the participant’s name, vendor
                 providing the course, title of the course, and grade or other indicator of
                 successful completion) within a specified time period; and 5) enforce
                 continuing service agreements3 to protect the investment the IRS is making
                 in its employees.




3
 Continuing service agreements provide assurance that the IRS will recover the cost of its investment if a
participant leaves shortly after completing a course.
                                                                                                             Page 25
                           Improvements Have Been Made to Address
                       Human Capital Issues, but Continued Focus Is Needed




                                                                                                   IRS
 TIGTA                                                                                          Corrective
 Report                                                                                          Action
 Number                                 TIGTA Recommendation                                     Status
2012-10-091    To further improve the onboarding process and achieve the IRS’s goal of             Due
               making the IRS the best place to work in Government, the IRS Human               02/15/2013
               Capital Officer should develop an agency-wide onboarding strategy. The
               strategy should include goals for improving the onboarding process; an
               agency-wide process for planning, coordinating, and addressing actions
               being taken across the IRS on onboarding topics; a checklist with
               step-by-step guidance on each item that should be completed during the
               onboarding process, requiring managers to complete the checklist
               acknowledging that the items were addressed; a plan to promote the use of
               the onboarding toolkit and website to managers who are assigned newly
               hired employees; a process to collect feedback from managers on how the
               onboarding process could be improved; and additional measures and
               analyses to evaluate the onboarding process, including a means of
               identifying specific areas of employee concern for their first year of
               employment.
2012-20-107    The Chief Technology Officer should develop an inventory list of the key         Completed
               (or important) skills needed for each IRS Information Technology                 10/11/2012
               organization position and differentiate the skills by proficiency level.
2012-20-107    The Chief Technology Officer should implement a repeatable process for           Completed
               assessing employees’ skills. IRS Information Technology organization             10/10/2012
               management should consider using the Assess 4 Success process and tools
               developed by the IRS Human Capital Office.
2012-IE-R002   The Director, Physical Security and Emergency Preparedness, should               Completed
               develop a comprehensive list of contract security guards and ensure that the     05/14/2012
               list is properly validated and updated on a regular basis.
2012-IE-R002   The Director, Physical Security and Emergency Preparedness, should               Completed
               develop procedures to require that contracting officer’s technical               03/15/2012
               representatives obtain and maintain records to verify that contractors without
               staff like access are properly escorted while in their facilities.
2012-IE-R002   The Director, Physical Security and Emergency Preparedness, should               Completed
               require that contracting officer’s technical representatives conduct follow-up   03/15/2012
               procedures to determine the status of requests for reinvestigations. In cases
               where a contract employee fails to provide information required for the
               reinvestigation, the contracting officer’s technical representative should
               remove the contract employee from duty.


                                                                                                  Page 26
                              Improvements Have Been Made to Address
                          Human Capital Issues, but Continued Focus Is Needed




                                                                                                             IRS
    TIGTA                                                                                                 Corrective
    Report                                                                                                 Action
    Number                                   TIGTA Recommendation                                          Status
2012-IE-R002     The Director, Physical Security and Emergency Preparedness, should                       Completed
                 periodically issue memoranda to remind all contracting officer’s technical               03/15/2012
                 representatives of their responsibility to ensure that all unescorted contract
                 employees are approved for staff like access in accordance with procedures
                 included in the Internal Revenue Manual.
2012-IE-R002     The Director, Physical Security and Emergency Preparedness, should                       Completed
                 periodically issue memoranda to remind all contracting officer’s technical               03/15/2012
                 representatives of their responsibility to officially file records for each
                 contract guard, in accordance with procedures in the Internal Revenue
                 Manual.
2012-IE-R002     The Director, Physical Security and Emergency Preparedness, should                       Completed
                 require Office of Personnel Management background investigations and                     03/15/2012
                 adjudication by IRS officials for all security guards assigned to protect IRS
                 employees.
2012-IE-R003     The IRS Human Capital Officer should develop requirements and retention                  Completed
                 policies to ensure that prescreening actions are consistently completed and              04/06/2012
                 fully documented.
2013-10-007      The Director, IRS Human Capital Office Employment, Talent, and Security,                 Completed
                 should deactivate any Career Connector4 certificate options that are not used            05/08/2012
                 by the employment offices and issue formal guidance to the employment
                 offices for selecting the correct certificate type in Career Connector.
2013-10-007      The Director, IRS Human Capital Office Employment, Talent, and Security,                    Due
                 should correct Career Connector report writing programming to use the                    01/30/2013
                 issuance date of the selection certificate when calculating the time spent by
                 the divisions on rating and ranking certificates.
Source: Department of the Treasury’s Joint Audit Management Enterprise System.




4
 Career Connector is a computer system that allows individuals applying for a job within the IRS to electronically
submit resumes and applicant qualification documentation, e.g., college transcripts, performs automatic reviews of
applications to assess whether applicants meet job requirements, identifies which applicants are the best qualified,
and sends communications to applicants.
                                                                                                            Page 27
                                 Improvements Have Been Made to Address
                             Human Capital Issues, but Continued Focus Is Needed



                                                                                                     Appendix VI

             Internal Revenue Service Workforce Trends

As part of our ongoing monitoring and reporting of the IRS’s efforts to address its human capital1
challenge, we have collected workforce trends in the areas of workforce size and retirement
eligibility.

Total workforce size trends
As shown in Figure 1, the IRS’s workforce size was increasing between FYs 2008 and 2010.
However, this trend has been reversed over the last couple of fiscal years due to budget cuts.
                                       Figure 1: Total Workforce Size2




         Source: IRS Human Resources database. We did not validate these figures; however, the
         general trends reflected in this chart are supported by enacted budgets.




1
    Human capital is used to describe the skills, abilities, and contributions of the employees in an agency.
2
    Workforce figures are as of the end of each fiscal year.
                                                                                                                Page 28
                                 Improvements Have Been Made to Address
                             Human Capital Issues, but Continued Focus Is Needed



As shown in Figure 2, the percentage of mission-critical employees in the IRS workforce has
been increasing over the last five fiscal years. This is important because mission-critical
employees represent those few occupations that comprise the unique core competencies of the
IRS or have the greatest direct impact on the agency’s ability to meet its mission of providing
America’s taxpayers with top-quality service by helping them understand and meet their tax
responsibilities and enforcing the law with integrity and fairness to all.
                        Figure 2: Percentage of Mission-Critical Employees
                                         (FYs 2008–2012)3




         Source: IRS Human Resources database.




3
    Workforce figures are as of the end of each fiscal year.
                                                                                          Page 29
                              Improvements Have Been Made to Address
                          Human Capital Issues, but Continued Focus Is Needed



While the percentage of mission-critical positions in the IRS workforce is increasing, the
workforce size of particular occupations varies. For example, Figure 3 shows that the number of
information technology specialists has grown significantly, while the number of revenue officers
and contract specialists has decreased significantly.
                    Figure 3: Workforce Trends for Example Occupations
                                     (FYs 2008–2012)4

                                                                                             Five-Year
                               FY          FY          FY          FY          FY           Percentage
      Occupation              2008        2009        2010        2011        2012       Increase/Decrease

      Revenue
                             13,125      14,441      14,268       13,932      13,036            -0.68%
      Agent5

      Tax
                               1,559       1,749       1,933       1,781       1,659             6.41%
      Technician6

      Appeals
                                 828         898         945         911          863            4.23%
      Officer7

      Revenue
                               5,597       6,249       6,026       5,578       5,152            -7.95%
      Officer8

      Contract
                                 298         285         275         271          274           -8.05%
      Specialist

      Information
      Technology               5,193       5,075       5,109       5,744       5,851            12.67%
      Specialist
    Source: IRS Human Resources database.




4
  Workforce figures are as of the end of each fiscal year.
5
  Revenue agents perform examinations of individuals and businesses and are critical positions for achieving the
IRS’s mission.
6
  Tax technicians contact taxpayers, their representatives, and third parties to secure payment of delinquent taxes and
the filing of delinquent returns.
7
  Appeals officers conduct conferences to settle cases in which taxpayers have appealed IRS determinations on their
tax case or filed a petition in the United States Tax Court.
8
  Revenue officers collect taxes due and are critical positions for achieving the IRS’s mission.
                                                                                                             Page 30
                                 Improvements Have Been Made to Address
                             Human Capital Issues, but Continued Focus Is Needed



Retirement eligibility for all employees, executives, and managers
By the end of FY 2013, 19 percent of the total IRS workforce will be eligible to retire. As shown
in Figure 4, the percentage increases to 37 percent by the end of FY 2017.
                               Figure 4: IRS Employees Eligible to Retire9
                                            (FYs 2013–2017)

              Total
            Workforce10         FY 2013          FY 2014          FY 2015           FY 2016           FY 2017

                                  18,825           22,868           27,186           31,602            35,953
                97,717
                                  (19%)            (23%)            (28%)            (32%)             (37%)
           Source: IRS Human Resources database.

Figure 4 includes all IRS employees (including managers and executives). Figure 5 provides a
breakout of just the number of managers and executives that will have reached retirement age
each year for the next five years.
                       Figure 5: IRS Executives and Nonexecutive Managers
                                 Eligible to Retire (FYs 2013–2017)

                                      Total
                                    Executives
              Management               and               FY          FY            FY          FY         FY
                Level               Managers            2013        2014          2015        2016       2017

                                                        122          148           169         193        213
                Executives                 309
                                                       (39%)        (48%)         (55%)       (62%)      (69%)

              Nonexecutive                             2,175        2,686         3,199       3,739      4,141
                                        8,583
               Managers                                (25%)        (31%)         (37%)       (44%)      (48%)

                                                        2,297       2,834          3,368    3,932        4,354
                  Totals                8,892
                                                       (26%)       (32%)          (38%)    (44%)        (49%)
          Source: IRS Human Resources database.




9
    Retirement eligibility figures are as of September 30 for each fiscal year.
10
    Total workforce figures are as of the end of FY 2012.
                                                                                                                 Page 31
